 U.S. DEPARTMENT OF COMMERCE
           Office of Inspector General




      NATIONAL OCEANIC AND
ATMOSPHERIC ADMINISTRATION

                  Progress Being Made in
  Certification and Accreditation Process,
       but Authorizing Officials Still Lack
  Adequate Decision-making Information

            Final Report No. OSE-18019/September 2006




             PUBLIC RELEASE




                               Office of Systems Evaluation
U.S. Department of Commerce                                                                            Final Report OSE-18019
Office of Inspector General                                                                                    September 2006

                                                         CONTENTS

Summary .............................................................................................................................. i
Introduction......................................................................................................................... 1
Objectives, Scope, and Methodology ................................................................................. 3
Findings and Recommendations ......................................................................................... 5
I.         NOAA Has Enhanced System Security Plans and Risk Assessments, but
Additional Improvements Are Needed ............................................................................... 5
      A. Security Plans Improved, but System Descriptions Need to Be More Accurate.... 5
      B. Risk Assessments Provided More Useful Information........................................... 6
      Recommendations......................................................................................................... 8
II.        Security Control Assessments Were Not Sufficient for Effective Certification... 10
      A. Vulnerability Scanning Was Incomplete and Ineffective ..................................... 10
      B. Security Control Assessments Did Not Provide Evidence of Effective
           Management, Operational, and Technical Controls ............................................. 13
      Recommendations....................................................................................................... 15
APPENDIX: NOAA’s Response..................................................................................... 17
U.S. Department of Commerce                                          Final Report OSE-18019
Office of Inspector General                                                  September 2006

                                      SUMMARY

This report presents the findings from our FY 2005 Federal Information Security
Management Act (FISMA) review that relate to important parts of NOAA’s certification
and accreditation (C&A) process: 1) system security plans/risk assessments, and 2)
security control assessments.

System certification is the comprehensive assessment of security controls implemented in
an information system. It determines the extent to which controls are implemented
correctly, operating as intended, and meeting the security requirements for the system.
Accreditation is management’s formal authorization to allow a system to operate and
includes an explicit acceptance of the risk posed by the identified remaining
vulnerabilities.

For FY 2005, we reviewed the C&A documentation for three NOAA systems: the Search
and Rescue Satellite-aided Tracking system (SARSAT), the Polar Orbiting Operational
Environmental Satellite Ground System (POES), and the Office of Response and
Restoration Seattle Local Area Network (Seattle LAN). Each of these systems was
certified and accredited as part of NOAA’s C&A improvement effort.

As we noted in our September 2005 Semiannual Report to Congress, NOAA had
significantly improved risk assessments, security plans, and security control assessments.
Our review found, however, that further enhancement is needed to improve its C&A
process. Our FY 2005 independent FISMA evaluation reported that C&A packages for
SARSAT and the Seattle LAN were compliant with FISMA, but POES was not.
However, even for SARSAT and the Seattle LAN, several important aspects of the C&A
process need to be improved. We have prepared this report to highlight problems with the
SARSAT, POES, and the Seattle LAN C&As that we have seen in other NOAA packages
in prior years and were still evident in our review of five NOAA systems earlier in FY
2006.

NOAA has categorized SARSAT and POES as high-impact systems because a security
breach would potentially have severe or catastrophic adverse effects. The certification
and accreditation of SARSAT and POES should therefore reflect the highest degree of
rigor. The Seattle LAN, as a moderate impact system, would be held to a somewhat lesser
standard but a significant degree of due diligence should be manifest in the C&A process.

NOAA Has Enhanced System Security Plans and Risk Assessments, but Additional
Improvements Are Needed.

Security plans form the basis for certification activities by outlining the security
requirements for a system and the controls put in place to meet the requirements. NOAA
security plans were improved from those we saw in our FY 2004 review with more
accurate accreditation boundaries and better identification of software components and
interconnections. But the plans failed to accurately depict network components—raising
the possibility that certification efforts may not adequately examine such devices. Current



                                             i
U.S. Department of Commerce                                         Final Report OSE-18019
Office of Inspector General                                                 September 2006

interconnection agreements were not in place for POES and SARSAT. Without formal
interconnection agreements, there are insufficient mechanisms for enforcing security
requirements on external systems with which NOAA systems are connected, posing
increased risks to the agency and agency operations.

Risk assessments for all three systems provided useful information for NOAA system
owners to determine what appropriate security controls should be, although we noted
some flaws in the assessment methods. Often, the threats and vulnerabilities assessed
were vague or broad generalizations and the analysis at times confused the definitions of
the terms. The analysis of how controls may mitigate specific adverse events was also
lacking. Under recent NIST standards and guidance for selecting security controls, risk
assessments should focus on tailoring the security control baseline as well as analyzing
any resource-intensive changes to the security features of the system. (See page 5.)

We recommend NOAA ensure security plans provide a complete and accurate account of
system components and interconnection agreements are in place. And NOAA should
ensure risk assessments are used to tailor security control baselines and provide analysis
and justifications for resource-intensive changes to the security features of the
information system. (See page 8.)

Security Control Assessments Were Not Sufficient for Effective Certification.

NOAA’s use of vulnerability scans to assess the adequacy of security controls was
incomplete and ineffective. NOAA’s designated scanning tool was unable to evaluate
many network components for all three systems. POES scans were successfully
completed on only 4 of 14 components residing on its development network, while the
operational network was not scanned. SARSAT scans were also limited—key
components such as firewalls, routers, and switches were not scanned prior to the
accreditation. Additional scans of POES and SARSAT conducted in response to our
concerns were also incomplete.

NOAA did not analyze or correct potentially serious vulnerabilities on the Seattle LAN.
Although two additional scanning tools were used and identified a significant number of
vulnerabilities, the vulnerabilities were not analyzed or corrected prior to the
accreditation decision, and they were not identified to the authorizing official.

Although POES and SARSAT are high impact systems that require penetration testing,
such testing was not performed. Penetration testing can provide an indication of how
vulnerable an organization’s network is and the level of damage that can result.

Security control assessments did not provide evidence of effective management,
operational, and technical controls. POES, SARSAT, and the Seattle LAN control
assessments covered only a subset of the minimum security controls described in NIST
guidance. Generally, the C&A packages did not include specific procedures for
evaluating the controls or adequate documentation of the results. Moreover, the approach
used to select network components for technical control assessments did not provide for



                                            ii
U.S. Department of Commerce                                           Final Report OSE-18019
Office of Inspector General                                                   September 2006

complete testing of all operating system variants running on servers, workstations,
laptops, routers, and switches. (See page 9.)

We recommend NOAA ensure comprehensive vulnerability scanning, analyze and
document scan results, and plan and implement penetration testing on high-impact
systems. NOAA should comprehensively test all management, operational, and technical
controls, perform technical control tests on each operating system variant, and clearly
document remaining vulnerabilities for the authorizing official. (See page 14.)

Summary of NOAA’s Response

In response to our draft report, NOAA concurred with most of our recommendations, but
took issue with two of them. In regards to our recommendation that component listings
be comprehensive and consistent with results of network scanning, NOAA agreed that
security plans should provide an accurate and comprehensive listing of components.
However, the bureau argued that “perfect line-by-line consistency between a
vulnerability scan and the component listing, while desirable, is seldom achievable,” and
provided two reasons why components would not be scanned due to technical or
operational circumstances. The bureau stated that to ensure vulnerability scanning is as
comprehensive as possible, it would “analyze and explain identified discrepancies
between component listings and vulnerability scans performed during certification
testing.”

NOAA took exception with our recommendation pertaining to the sampling approach
used to test systems, based on the bureau’s interpretation of the recommendation to be
more exhaustive than we had intended. The bureau suggested we change the wording of
the recommendation by replacing the word “identically” with “uniquely.”

NOAA recommended one factual change to our report, pertaining to the vulnerabilities
discovered by scans of the Seattle LAN. The bureau recommended we change one
sentence to reflect the fact that the vulnerabilities were addressed on the system’s Plan of
Action and Milestones (POA&M) “that covered all risks accepted by the authorizing
official.” It noted that the POA&M entries, “generally stated that vulnerabilities were
discovered by scanners and needed correcting and/or mitigating.”

NOAA made the point that the C&A activities for the three systems we reviewed had
begun 18 months prior and were completed 14 months ago. NOAA stated that it made
immediate changes in its C&A process subsequent to our December 2005 briefing on the
same subject matter. The bureau also stated that it has now fully adopted NIST guidance,
implemented enhanced internal review processes, added C&A support staff, and
increased risk analysis and reporting requirements. NOAA leadership has worked, “to
raise awareness of the resources required to implement and maintain an effective and
compliant C&A program.” As such, the bureau believes it has implemented most of our
recommendations and will continue to take steps to, “ensure program effectiveness.”




                                             iii
U.S. Department of Commerce                                           Final Report OSE-18019
Office of Inspector General                                                   September 2006



OIG Comments

In regards to our recommendation that component listings should be comprehensive and
consistent with results of network scanning, we concede NOAA’s point that perfect line-
by-line consistency is a difficult task. However, the reasons NOAA provided really
describe two scenarios where the scans would not identify components included in the
system security plan. Our review also found the opposite: scans identified components
that were not included in the security plan, thus drawing into question the completeness
of the system description. This is important because it raises the possibility that other
required testing (beyond vulnerability scanning) will not be performed on devices
omitted from the security plan, but which are, in fact, a part of the system. That said, we
are satisfied with NOAA’s intention to analyze and explain discrepancies between scans
and component listings, so long as the outcome achieves an accurate depiction of the
system and leads to comprehensive certification testing.

With respect to our recommendation pertaining to the sampling approach used to test
systems, we have changed the wording according to NOAA’s suggestion. As a result, the
bureau should fully concur with our recommendations.

In regards to the scan results for the Seattle LAN, we have changed the sentence on page
11 according to NOAA’s suggestion. However, we have also added a sentence indicating
that the POA&M entries, which were general statements that vulnerabilities were
discovered by scans, were not sufficient to describe the nature of the risks found by the
scans and that such is more appropriately described in the security assessment report.

Lastly, while we recognize that this report details findings from work NOAA did over a
year ago, its publication was motivated by preliminary reviews of five additional C&A
packages early in FY 2006, which identified similar problems. Our hope is that
documenting our concerns in this report will further facilitate correction of these issues,
many of which have persisted for some time. We are generally pleased with NOAA’s
response and feel that we have made changes to the draft which should rectify the issues
NOAA raised. We look forward to the output from NOAA’s improved C&A process
including the enhanced security that should result.

NOAA’s written response is included in its entirety as an appendix to this report.




                                             iv
U.S. Department of Commerce                                            Final Report OSE-18019
Office of Inspector General                                                    September 2006

                                    INTRODUCTION

Pursuant to the Federal Information Security Management Act (FISMA), we evaluated
selected aspects of NOAA’s information security program in FY 2005. This report
presents our findings that relate to important parts of NOAA’s certification and
accreditation process: 1) system security plans/risk assessments, and 2) security control
assessments.

NOAA’s C&A Improvement Effort

On February 24, 2005, the Department CIO issued a plan to eliminate Commerce’s IT
security material weakness by having improved C&A packages by the end of FY 2005
for all national-critical systems, along with a substantial number of mission-critical
systems. All Commerce systems were to have acceptable quality C&A packages by the
end of FY 2006. Accordingly, in FY 2005 NOAA began an effort to improve its
certification and accreditation process.

For FY 2005, we reviewed the certification and accreditation of three NOAA systems:
the Search and Rescue Satellite-aided Tracking system (SARSAT), the Polar Orbiting
Operational Environmental Satellite Ground System (POES), and the Office of Response
and Restoration Seattle Local Area Network (Seattle LAN). Each of these systems was
certified and accredited as part of NOAA’s improvement effort.

As we noted in our September 2005 Semiannual Report to Congress, NOAA had
significantly improved risk assessments, security plans, and security control assessments.
Our review found, however, that while NOAA made progress, further enhancement is
needed to improve its C&A process. Our FY 2005 independent FISMA evaluation
reported that C&A packages for SARSAT and the Seattle LAN were compliant with
FISMA, but POES was not. However, even for SARSAT and the Seattle LAN, several
important aspects of the C&A process need to be improved. We have prepared this report
to highlight problems with the SARSAT, POES, and the Seattle LAN C&As that we have
seen in other NOAA packages in prior years and were still evident in our review of five
NOAA systems 1 earlier in FY 2006. We have briefed NOAA on our findings for these
five systems, some of which are scheduled to be resubmitted for our FY 2006 FISMA
evaluation.

Security categorizations of NOAA systems

FIPS Publication 199, Standards for Security Categorization of Federal Information and
Information Systems, defines three levels of potential impact on organizations or
individuals in the event of a security breach—high, moderate, and low. NOAA
categorizes SARSAT and POES as high-impact systems because the loss of

1
 NOAA0200 Network Operations Center (NOC), NOAA0300 Message Operations Center (MOC),
NOAA3070 Geophysical Fluid Dynamics Laboratory, NOAA6205 Physical Oceanographic Real-Time
System (PORTS) and National Water Level Observation Network (NWLON), and NOAA6501 Office of
Coast Survey (OCS) Nautical Charting System.


                                              1
U.S. Department of Commerce                                                  Final Report OSE-18019
Office of Inspector General                                                          September 2006

confidentiality, integrity, or availability is expected to have severe or catastrophic effects.
The Seattle LAN is categorized as a moderate-impact system because a security breach
would have a lesser but still serious adverse effect. A security breach of a low impact
system would be expected to have a limited adverse effect.

The security categorization of a system sets the initial baseline of minimum security
controls found in NIST SP 800-53, Recommended Security Controls for Federal
Information Systems, which is now required under the Department’s IT security policy,
updated in June 2005. 2 Security categorization is important not only for the resulting
control requirements, it should also guide the rigor, intensity, and scope of all information
security-related activities—including those that constitute the certification and
accreditation process.

As high impact systems, the certification and accreditation of SARSAT and POES should
reflect the highest level of effort in defining security requirements and implementing
controls, assessing the effectiveness of those controls, and proactively identifying and
managing security weaknesses. The Seattle LAN, as a moderate impact system, would be
held to a somewhat lesser standard but a significant degree of due diligence should be
manifest in the C&A documentation.

The goal of certification and accreditation

System certification and accreditation is a key element of agency information technology
(IT) security programs. Certification is the comprehensive assessment of security controls
implemented in an information system. It determines the extent to which controls are
implemented correctly, operating as intended, and meeting the security requirements for
the system. Through the formal assessment of controls, the system certifier identifies
remaining vulnerabilities—vulnerabilities not eliminated by the implementation of
security controls.

Accreditation is management’s formal authorization to allow a system to operate and
includes an explicit acceptance of the risk posed by the identified remaining
vulnerabilities. Through accreditation, senior agency officials take responsibility for the
security of the systems over which they have management, operational, and budget
authority and for any adverse impacts should a breach in security occur.




2
  For FY 2005, systems had the option of meeting the minimum controls in 800-53 or NIST SP 800-26,
Security Self- Assessment Guide for Information Technology. All three NOAA systems we reviewed
described the 800-53 controls in their security plans or control assessments. POES and SARSAT also
included controls from 800-26. Federal Information Processing Standard Publication 200, Minimum
Security Requirements for Federal Information Systems, now makes the minimum security controls
specified in NIST SP 800-53 mandatory (non-waiverable) for federal agency systems.


                                                  2
U.S. Department of Commerce                                                       Final Report OSE-18019
Office of Inspector General                                                               September 2006

                      OBJECTIVES, SCOPE, AND METHODOLOGY

The purpose of this report is to discuss key findings for NOAA from our FY 2005
independent FISMA evaluation and to provide recommendations based on these findings.
As shown in Table 1, we reviewed selected C&A packages 3 from the National
Environmental Satellite Data and Information Service (NESDIS) and National Ocean
Service (NOS).

                         Table 1. OIG Review Coverage by NOAA Line Office

               Line Office                                 System
                                  Search and Rescue Satellite-aided Tracking
               NESDIS
                                  (SARSAT)—NOAA 5023
                                  Polar Orbiting Operational Environmental Satellite
               NESDIS
                                  Ground System (POES)—NOAA 5026
                                  Office of Response and Restoration Seattle Local Area
               NOS
                                  Network (Seattle LAN)—NOAA 6702

We reviewed three NOAA C&A packages for our FY 2005 evaluation. 4 During the
course of our review, we discussed questions that arose with appropriate NOAA officials.

Our review criteria included:

    •    Federal Information Security Management Act of 2002 (FISMA)

    •    U.S. Department of Commerce, IT Security Program Policy and Minimum
         Implementation Standards (January 2003 or June 2005 versions, as applicable)

    •    U.S. Department of Commerce, System Security Plan Certification and
         Accreditation Package (SSPCAP) Requirements Inspection Checklist, version 2,
         June 30, 2003

    •    OMB Circular A-130, Management of Federal Information Resources
           o Appendix III, Security of Federal Automated Information Resources



3
  The Department’s IT security policy defines a certification and accreditation package as a system security
plan, risk assessment, contingency plan, incident response plan, configuration management plan, system
interconnection agreements, security assessment report, certification work plan, certification test plan,
certification test results, and a plan of action and milestones.
4
  Based on schedules provided by the Department’s CIO Office, we expected 13 NOAA C&A packages to
be available by our cutoff date, but received only 3. We did not include one NOAA package made available
because OIG staff had previously provided feedback during its preparation. Hence, we believe
subsequently evaluating it for FISMA compliance would be contrary to the requirement that our review be
independent. The Seattle LAN package was the most acceptable of four additional packages provided after
our cutoff date and was thus chosen to add to our review sample for FISMA reporting.


                                                     3
U.S. Department of Commerce                                       Final Report OSE-18019
Office of Inspector General                                               September 2006

   •   National Institute of Standards and Technology’s (NIST’s) Federal Information
       Processing Standards (FIPS)
          o Publication 199, Standards for Security Categorization of Federal
              Information and Information Systems

   •   NIST Special Publications:
          o 800-18, Guide for Developing Security Plans for Information Technology
             Systems
          o 800-26, Security Self- Assessment Guide for Information Technology
          o 800-30, Risk Management Guide for Information Technology Systems
          o 800-37, Guide for the Security Certification and Accreditation of Federal
             Information Systems
          o 800-42, Guideline on Network Security Testing
          o 800-53, Recommended Security Controls for Federal Information Systems
          o 800-63, Electronic Authentication Guideline

   •   Office of Management and Budget (OMB) Memoranda:
          o M-05-15, FY 2005 Reporting Instructions for the Federal Information
              Security Management Act and Agency Privacy Management

We conducted our evaluation in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency in 2005 and under the
authority of the Inspector General Act of 1978, as amended. We conducted our review
from August 2005 to December 2005.




                                          4
U.S. Department of Commerce                                                         Final Report OSE-18019
Office of Inspector General                                                                 September 2006

                             FINDINGS AND RECOMMENDATIONS

I.    NOAA Has Enhanced System Security Plans and Risk Assessments, but
      Additional Improvements Are Needed

System security plans provided a better basis for certification activities than plans we
reviewed in FY 2004. In particular, we saw improvements in the descriptions of
accreditation boundaries, software components, and interconnections. But NOAA should
improve identification of network components and obtain interconnection agreements,
which are important for maintaining adequate security between systems. Risk
assessments had also improved, providing a better identification of specific risks. Under
the evolving NIST standards and guidance, the role of risk assessments has changed; we
provide some comments on how they can be better utilized in the future.

A. Security Plans Improved, but System Descriptions Need to Be More Accurate

NOAA clearly delineated the major components of the accreditation boundary in its
security plans, but some network components within the boundary were not always
identified—raising the possibility that certification efforts may not adequately examine
such devices. (See box for Departmental direction on system descriptions.)

                                                                   Vulnerability scanning performed
     Describing the System Environment and                         during certification of POES,
                 Interconnections                                  SARSAT, and the Seattle LAN
 The security plan provides information that is                    revealed network components not
 essential for determining the scope of security control           identified on the component listings in
 assessments and associating a security deficiency                 the systems’ security plans. The
 identified during testing with a specific network                 security plan for the Seattle LAN
 component. In describing the system environment and
 interconnections the plan should include:                         listed 170 network components, but
                                                                   NOAA’s primary network scanning
 • Detailed topology graphic that depicts system                   tool reported 140 components scanned
   boundary and key components (e.g., perimeter                    and a supplementary network scanning
   security devices, firewalls, routers, switches,                 tool identified 202 network
   servers),
                                                                   components. Scanning of the POES
 • Complete listing of hardware and software                       network identified 11 components not
   components, and                                                 documented in its component listing.
                                                                   And five servers (i.e., key
 • Discussion of interconnections with other (both                 components) identified in SARSAT’s
   untrusted and trusted) systems, referencing and                 scans were missing from the system
   including copies of Memoranda of Understandings
   (MOUs) and other agreements for provision of IT                 topology diagram.
   security for the connections.
 Source: U.S. Department Of Commerce IT Security Program
 Policy And Minimum Implementation Standards, June 30, 2005, pp.
 178–179. Similar requirements were part of the System Security
 Plan Certification and Accreditation Package (SSPCAP)
 Requirements Inspection Checklist, version 2, June 30, 2003.




                                                            5
U.S. Department of Commerce                                           Final Report OSE-18019
Office of Inspector General                                                   September 2006

The component listing in the POES system security plan included identical names for
different network components, making it impossible to discern which components were
actually tested.

POES and SARSAT lack interconnection agreements

Our review of POES and SARSAT found that current interconnection agreements, as
required by Appendix III to OMB Circular A-130, Security of Federal Automated
Information Resources and Department policy, were not in place. The system security
plan for SARSAT described five network interconnections, but SARSAT’s C&A
package included only a single, unsigned interconnection agreement with the Federal
Aviation Administration.

Likewise, the POES system security plan indicated an interconnection agreement in place
with the National Aeronautics and Space Administration, but it was not provided with the
C&A package. The POES C&A package did include a signed MOU with a contractor,
but the security plan indicated this particular interconnection agreement was “TBD” (to
be determined).

If not appropriately safeguarded, interconnections with other systems may lead to
breaches of security. Without formal interconnection agreements, there are insufficient
mechanisms for enforcing security requirements between systems and as a result,
increased risks to the agency and agency operations.

B. Risk Assessments Provided More Useful Information

Risk assessments of SARSAT and POES ultimately identified specific risks and control
recommendations upon which system owners could take action. The lengthy assessments
were prepared by a NOAA contractor and considered a broad range of threats and
vulnerabilities that were factored into an extensive matrix ranking system.

While the assessments generally followed the NIST process, we found some faults at
various steps in the process. Descriptions of many of the threats and vulnerabilities were
vague or broad generalizations. In some cases, vulnerabilities were confused with threats
(and vice versa) or consequences of vulnerability exploits. The sections describing
controls did not consider how controls mitigated the likelihood of a particular adverse
event, as NIST guidance requires.

However, the results summaries of both risk assessments identified system-specific
vulnerabilities and included discussion of potential attacks and consequences. In most
cases, recommendations for controls were made. Additionally, the results of technical
vulnerability scans were included in the assessments. Although the scanning itself was
very limited (see Finding II), the vulnerabilities identified in the scans were analyzed,
prioritized, and system patches or other remediation measures were suggested.




                                             6
U.S. Department of Commerce                                            Final Report OSE-18019
Office of Inspector General                                                    September 2006

Seattle LAN Risk Assessment

The Seattle LAN risk assessment listed one vulnerability/threat-source pair for each
NIST SP 800-53 control (i.e., one adverse event per control). But according to NIST
guidance, the analytical method is to consider a vulnerability/threat-source pair and the
controls (i.e., multiple) in place or planned that may mitigate the risk. By only
considering one potential adverse event per control, the analysis was incomplete—
precluding consideration of defense in depth, a security principle that advocates the
layering of controls to provide multiple defenses against various types of attacks.
However, the assessment did summarize four risks and included a “safeguard
implementation plan” that prioritized the risks, outlined remediation efforts, and detailed
resources required and dates.

Risk assessments should focus on specific threats and vulnerabilities

The security categorization mandated by FIPS PUB 199 and corresponding minimum
controls found in NIST SP 800-53 have changed the scope of risk assessments. The 800-
53 security controls address the broader spectrum of threats and vulnerabilities that apply
to all systems, including those pertaining to continuity of operations (which are also
addressed in the system’s contingency plan).

Therefore, instead of considering all possible risks, NOAA risk assessments should focus
on specific threats, vulnerabilities, and relevant security controls. These assessments
should provide insight into the need for making changes to controls or control
requirements. More specifically, risk assessments, including any related cost-benefit
analysis, should be used as justification for tailoring the baseline of controls required by
NIST SP 800-53 and for making resource-intensive changes to the security features of the
information system.

Scoping guidance in NIST SP 800-53 describes risk-related considerations that may call
for adjusting the baseline of minimum controls (in many cases by adding controls).
Specific controls are listed as candidates for downgrading to a lower baseline. Doing so
would require the action be consistent with the confidentiality, integrity, and availability
impact levels of the system, and in many cases, be supported by a formal assessment of
risk.

A security control assessment may reveal vulnerabilities that are easily corrected (e.g., by
installing simple patches or updates) and others that require significant investment in time
and resources to remedy. The former would need minimal analysis and should be quickly
remedied. The more significant (particularly in terms of cost) vulnerabilities should be
considered in the risk assessment, resulting in a statement of risk, recommendations for
changing or adding controls, and cost-benefit analysis as appropriate. The system owner
and authorizing official can then decide which needed changes deserve priority over
others and guide resources accordingly.




                                              7
U.S. Department of Commerce                                           Final Report OSE-18019
Office of Inspector General                                                   September 2006

Recommendations

The Deputy Undersecretary for Oceans and Atmosphere should direct appropriate
management officials to take the following actions for all C&A packages:

1. Ensure that security plans provide a complete and accurate account of system
   components.
      a. Component listings should be comprehensive and consistent with results of
          network scanning performed during certification testing.
      b. Network topology diagrams should include all key components and be
          consistent with network scan results.
      c. Components should be uniquely identified so that certification activities can
          be accurately performed and tracked.

2. Ensure interconnection agreements or memoranda of understandings are obtained and
   included in future C&A packages.

3. Ensure risk assessments are used to tailor security control baselines and provide
   analysis and justifications for resource-intensive changes to the security features of
   the information system.

NOAA’s Response

In regards to our recommendation that component listings be comprehensive and
consistent with results of network scanning, NOAA agreed that security plans should
provide an accurate and comprehensive listing of components. However, the bureau
argued that “perfect line-by-line consistency between a vulnerability scan and the
component listing, while desirable, is seldom achievable,” and provided two reasons why
components would not be scanned due to technical or operational circumstances:

           •   If a device in the inventory is old or unique, it may be unknown to the
               vulnerability scanner software.
           •   A device in the inventory may be unavailable due to maintenance or
               removal from the system during the scan. An example of this is a laptop
               that is taken on travel.

The bureau stated that to ensure vulnerability scanning is as comprehensive as possible, it
would “analyze and explain identified discrepancies between component listings and
vulnerability scans performed during certification testing.” NOAA agreed with the
remainder of the recommendations related to this finding.

OIG Comments

We concede NOAA’s point that perfect line-by-line consistency between component
listings and scans is a difficult task. However, the reasons NOAA provided really
describe two scenarios where the scans would not identify components included in the



                                             8
U.S. Department of Commerce                                           Final Report OSE-18019
Office of Inspector General                                                   September 2006

system security plan. Our review also found the opposite: scans identified components
that were not included in the security plan, thus drawing into question the completeness
of the system description. This is important because it raises the possibility that other
required testing (beyond vulnerability scanning) will not be performed on devices
omitted from the security plan, but which are, in fact, a part of the system. That said, we
are satisfied with NOAA’s intention to analyze and explain discrepancies between scans
and component listings, so long as the outcome achieves an accurate depiction of the
system and leads to comprehensive certification testing.




                                             9
U.S. Department of Commerce                                                        Final Report OSE-18019
Office of Inspector General                                                                September 2006

II.   Security Control Assessments Were Not Sufficient for Effective Certification

NOAA did not comprehensively scan the components of its systems or properly analyze
the results of scans. Unknown vulnerabilities likely exist while those identified were not
properly evaluated for possible corrective actions. NOAA also did not perform adequate
assessments of management, operational, and technical security controls. As a result,
authorizing officials lacked sufficient information for making sound accreditation
decisions.

A. Vulnerability Scanning Was Incomplete and Ineffective

Vulnerability scans of both the POES and SARSAT systems failed to examine many
network components. The Seattle LAN was extensively scanned, but vulnerabilities were
not analyzed prior to accreditation.

Scanning of POES was limited to only four components, but the C&A package did not
explain why. In follow-up discussions with NESDIS’s IT security officer, we learned the
certification team had not attempted to correct issues that limited scanning. No
components residing on the operational network were scanned. Four components were
successfully scanned on the development network, but 10 others were not.

The SARSAT C&A package did not define the scope of scanning and provided only a
summary of results. Our discussions with NOAA revealed that only workstations and
servers were scanned, not firewalls, routers, or switches—key components that provide
essential security services. The scans performed were analyzed and documented in the
risk assessments, but since not all network components were scanned, unknown
vulnerabilities likely exist.

Additional scanning of POES and SARSAT also was inadequate

After we discussed our findings that certification scanning was incomplete, NOAA
acknowledged the problem and conducted additional scanning on POES and SARSAT.
Unfortunately, the additional POES scans were incomplete as well. None of the network
components located at NOAA’s Fairbanks or Wallops installations were scanned. At
NOAA’s Satellite Operations Control Center in Suitland, Maryland, only the operational
network components within three of seven subnets 5 were scanned.

Additional SARSAT scans included all network components except the five remote local
user terminal 6 subnets located in Hawaii, Guam, California, Florida, and Alaska.
According to NOAA officials, these subnets were not tested because they could not be
scanned remotely, and the certification test team would have to conduct the vulnerability
scanning on-site.

5
  A subnet is an identifiably separate part of an organization's network. Typically, a subnet may represent
all the machines at one geographic location, in one building, or on the same local area network.
6
  Local user terminals receive 406 MHz distress signals detected by satellites.



                                                     10
U.S. Department of Commerce                                          Final Report OSE-18019
Office of Inspector General                                                  September 2006


NOAA officials said they made a risk-based decision that scanning the remote subnets
would not be cost effective, but that was not explained in the C&A package, and this lack
of vulnerability scanning was not identified as a remaining vulnerability to the
authorizing official. Because SARSAT is a high impact system, NOAA should develop a
strategy to scan all remote network components in future testing.

The results of the additional scans of both POES and SARSAT were not analyzed or
addressed in the C&A package, leaving the authorizing official with insufficient
information on remaining vulnerabilities.

NOAA’s primary scanning tool was unable to evaluate many of the network components

NOAA requires vulnerability scanning to be done using a particular scanning tool that
did not consistently complete testing. The scanning tool identified 140 network
components of the Seattle LAN, but only 63 were successfully scanned; so more than 50
percent of the network components could not be fully assessed for vulnerabilities. As
previously noted, POES vulnerability scanning could only assess 4 of the 14 components
on its development network during certification testing. NOAA did not provide
information regarding the tool’s success rate scanning SARSAT.

We also noted this irregularity in the quarterly vulnerability scans performed on NOAA
systems during our FY 2005 assessment of annual testing of security controls. For
example, we found that for the National Centers for Coastal Ocean Science Headquarters
Support System, the scanning tool identified 237 network components but only 122 were
fully scanned. Vulnerability scanning of all network components is necessary to identify
and eliminate vulnerabilities.

If NOAA’s scanning tool cannot scan all network components of a system, other
scanning tools should be used to ensure complete coverage. Department policy and NIST
SP 800-42, Guideline on Network Security Testing, recommend that more than one
scanning tool be used as a matter of practice, since no one scanner can reliably detect all
vulnerabilities.

Potentially serious vulnerabilities on the Seattle LAN were not analyzed or corrected

NOAA did use an additional scanning tool and a tool that identifies web application
vulnerabilities on the Seattle LAN to supplement its primary tool. The additional tools
provided more thorough testing. (See Table 2 for the total number of vulnerabilities
found by each scanning tool.) However, the Seattle LAN’s C&A package noted that
medium and low risk vulnerabilities detected by the primary and supplementary scanning
tools were considered acceptable and required no further analysis or mitigation. Only
high risk vulnerabilities required evaluation and possible mitigation. However, high risk
vulnerabilities were not evaluated or corrected prior to the accreditation decision, and
they were not identified to the authorizing official as remaining vulnerabilities.




                                            11
U.S. Department of Commerce                                          Final Report OSE-18019
Office of Inspector General                                                  September 2006

  Table 2. Number of Vulnerabilities Identified by Risk Level and Scanning Tool
                                 (Seattle LAN)

                                                      Risk Level and Number
                Scanning Tool
                                                      of Vulnerabilities Found
                                                   High       Medium         Low
           Primary Scanning Tool                     0            107           149
       Supplementary Scanning Tool                  59            218            79
      Web Application Scanning Tool                  8             35           677

Documentation for NOAA’s primary scanning tool states that medium vulnerabilities
“provide access to sensitive data” and low vulnerabilities “may be used for information
gathering…which could lead to higher risk levels.” Also, the supplementary scanning
tool’s documentation states that medium vulnerabilities “are serious security threats that
would allow a trusted but non-privileged user to assume complete control of a host, or
would permit an untrusted user to disrupt service or gain access to sensitive information,”
and low vulnerabilities “may provide an attacker with information that could be
combined with other, higher-risk vulnerabilities, in order to compromise the host or its
users.”

The Seattle LAN’s C&A package provided a brief analysis of vulnerabilities reported by
the supplementary web application scanning tool and says the information was provided
to the system administrators to determine resolution and possible mitigation. The
vulnerabilities were not corrected prior to the accreditation decision, but they were
included in the Plan of Action and Milestone (POA&M) that covered all risks accepted
by the authorizing official. However, the POA&M entries were not sufficient to
adequately describe the nature of the risks discovered by the scans—something that
would be more appropriately documented in the security assessment report.

Required penetration testing was not performed on POES and SARSAT

NOAA officials stated that penetration testing, required by Department policy for high-
impact systems, would be completed as part of the certification and accreditation process,
But neither the POES nor SARSAT systems had penetration tests prior to accreditation.
NIST SP 800-42 states that penetration testing is important because it can provide an
indication of how vulnerable an organization’s network is and the level of damage that
can result if the network is compromised.

In late September 2005, about 3 months after accreditation, NOAA provided OIG with a
draft penetration test report for POES. A discussion with the NESDIS IT security officer
confirmed our conclusion that only simple vulnerability scanning had been performed,
since the report provided no evidence of any attempts to exploit vulnerabilities.




                                            12
U.S. Department of Commerce                                         Final Report OSE-18019
Office of Inspector General                                                 September 2006



B. Security Control Assessments Did Not Provide Evidence of Effective Management,
   Operational, and Technical Controls

POES, SARSAT, and the Seattle LAN control assessments were incomplete, covering
only a subset of the minimum security controls described in NIST guidance. Generally,
the C&A packages did not include specific procedures for evaluating the controls or
adequate documentation of the results. We reviewed the assessments of management and
operational controls, but focused on technical control assessments.

Ineffective SARSAT and POES control assessments

Security control assessments considered only a subset of minimum required controls
from NIST SP 800-53 or 800-26, but included some additional controls specified by
NOAA’s IT security office. However, the combined number of management, operational,
and technical controls evaluated was less than 66 percent of the controls specified in
either NIST SP 800-53 or 800-26, and the majority of those assessed were technical
controls, with little attention to management and operational controls.

The procedures used to verify the effectiveness of controls were not defined in more than
60 percent of the assessment cases. And assessment results lacked enough detail to gauge
the adequacy of control testing or the effectiveness of the controls.

SARSAT’s technical control assessment was barely adequate for certification and
unknown vulnerabilities that could be exploited may exist. Only a small sample of
network components was evaluated, but the sample did include the primary domain
controller that enforces security policy for a significant portion of the system. NOAA
assessed the technical controls on 10 of 82 Windows network components and 1of 8
firewall device components. Servers and workstations within SARSAT run 9 variants, or
types, of Windows operating systems. However, components for which technical controls
were assessed ran only 4 of these 9 Windows operating system types.,

Controls in routers and switches were not examined. And multiple modems located
within the secure boundary—which are access points into the system—were not tested
for authentication and session security. These controls would normally enforce the
Department policy that passwords and data must be encrypted when transmitted over the
Internet or via dial-up connections.

Results of control assessments were provided in SARSAT’s C&A package, but some
were incomplete or did not include enough information to determine completeness. For
example, some controls were identified as “passed” without providing specific results.
Others were identified as “failed,” but only included results from some of the procedures
(multiple procedures are sometimes required to assess a single control).

POES technical control assessment applied the same approach used by SARSAT and was
likewise inadequate. Technical control testing was done on only 10 of the 81 Windows
network components, and it was unclear if the 4 variants of the Windows operating


                                           13
U.S. Department of Commerce                                         Final Report OSE-18019
Office of Inspector General                                                 September 2006

systems were tested. As previously mentioned, the lack of unique names for POES
network components made it impossible to know which network components were
actually tested. In addition, no routers or switches were tested.

Minimal Seattle LAN control assessment

The security control assessment of the Seattle LAN evaluated only a subset of the
management, operational, and technical controls required by NIST SP 800-53 for a
moderate-impact system. The C&A package included little information about assessment
activities, and no assessment procedures were defined for any of the controls. Only 22
percent of the controls were identified as assessed, and the results were not provided.
Instead, there was only an indication that a given control existed.

NOAA also did not evaluate a sufficient number of components for effective technical
controls assessment. The Seattle LAN system inventory identifies 8 servers running 3
variants of the Windows operating system, 128 workstations and laptops running 3
variants of the Windows operating system, 2 variants of the Macintosh operating system,
and 1 Linux operating system. However, only 2 network components—a single server
and workstation—of the 136 servers and workstations were tested, and no technical
control assessment was done on routers or switches. However, the server evaluated was
the primary domain controller, which provides essential security services for the network.

Comprehensive approach needed to select components for technical control assessments

The approach used to select network components for SARSAT, POES, and the Seattle
LAN did not provide for complete testing of all operating system variants running on the
servers, workstations, laptops, routers, and switches.

C&A packages for both SARSAT and POES noted that a representative sample of
network components had been selected for certification testing. However, 5 of 9
operating system variants were not tested for SARSAT, and it was unclear which variants
were not tested for POES.

Seven of nine operating system variants running on the Seattle LAN were not tested.
Consequently, the effectiveness of the technical controls operating on the network
components of these systems was unknown at the time of accreditation.

Because of technical differences in operating system variants, each should be tested to
ensure that technical controls are implemented correctly and operating as intended. A
sampling approach would be effective in cases where multiple network components run
the same operating system and where each component’s operating system is identically
configured. In that case, the certification agent should ensure that each uniquely
configured operating system variant is tested and provide the rationale for component
selection in the C&A package.




                                           14
U.S. Department of Commerce                                         Final Report OSE-18019
Office of Inspector General                                                 September 2006

Recommendations

The Deputy Undersecretary for Oceans and Atmosphere should direct appropriate
management officials to take the following actions:

1. Ensure comprehensive vulnerability scanning.
      a. Determine whether NOAA’s primary network scanner is capable of scanning
          all network components.
      b. If not, utilize an additional scanner to permit complete scanning.

2. Analyze and document vulnerability scan results, and take action to correct
   vulnerabilities.

3. Develop and implement a plan and schedule for conducting penetration testing on all
   high-impact systems.

4. Comprehensively test management, operational, and technical controls. Develop
   procedures to evaluate the controls and document test results.

5. Perform technical control tests on components of each uniquely configured operating
   system variant.

6. Clearly document remaining vulnerabilities in every system so authorizing officials
   can make credible risk-based decisions on whether or not to accredit the system.

NOAA’s Response

NOAA recommended one factual change pertaining to the vulnerabilities discovered by
scans of the Seattle LAN. The bureau suggested we change one sentence to reflect the
fact that the vulnerabilities were addressed on the system’s Plan of Action and Milestones
(POA&M) “that covered all risks accepted by the authorizing official.” It noted that the
POA&M entries, “generally stated that vulnerabilities were discovered by scanners and
needed correcting and/or mitigating.”

NOAA took exception with our recommendation pertaining to the sampling approach
used to test systems (number 5 above), based on the bureau’s interpretation of the
recommendation to be more exhaustive than we had intended. The bureau suggested we
change the wording of the recommendation by replacing the word “identically” with
“uniquely.” NOAA agreed with the remaining recommendations.

OIG Comments

In regards to the scan results for the Seattle LAN, we have changed the sentence (now on
page 12) according to NOAA’s suggestion. However, we have also added a sentence
indicating that the POA&M entries, which were general statements that vulnerabilities




                                           15
U.S. Department of Commerce                                          Final Report OSE-18019
Office of Inspector General                                                  September 2006

were discovered by scans, were not sufficient to describe the nature of the risks found by
the scans and that such is more appropriately described in the security assessment report.

With respect to our recommendation pertaining to the sampling approach used to test
systems, we have changed the wording according to NOAA’s suggestion.




                                            16
U.S. Department of Commerce                           Final Report OSE-18019
Office of Inspector General                                   September 2006

                          APPENDIX: NOAA’S RESPONSE




                                     17
2
